              OFFICE OF
              INSPECTOR GENERAL

                                                                                  August 13, 2013
Memorandum

To:            Eric Eisenstein
               Division Chief, Internal Control and Audit Follow-up
               Office of Financial Manageme~t              ')             A
From:         MichaelP.Colombo           ~-'Jt-f IC/./'Q
              Western Regional M~or Audits, Inspections, and Evaluations

Subject:      Verification Review ofRecommendations for the Evaluation Report, "Evaluation
              of the Department of the Interior's Accountability of Desktop and Laptop
              Computers and their Sensitive Data" (WR-EV-MOI-0006-2008, April2009)
              Report No. WR-VS-MOA-0018-2013

        The U.S. Department of the Interior (DOl) Office oflnspector General (OIG) has
completed a verification review ofthe four recommendations presented in the subject evaluation
report. Our objective was to determine whether the Office of Acquisition and Property
Management (PAM) and the Office ofthe Chieflnformation Officer (OCIO) implemented the
recommendations as reported to the Office of Financial Management (PFM), Office of Policy,
Management and Budget. PFM reported to OIG when PAM and OCIO had addressed and
provided supporting documentation for the recommendations in the subject report. Based on our
review, we consider all four recommendations to be resolved and implemented.

Background

       Our April2009 evaluation report, "Evaluation of the Department ofthe Interior's
Accountability of Desktop and Laptop Computers and their Sensitive Data," contained four
recommendations pertaining to the accountability ofDOI computers and the potential loss or
misuse of sensitive information they may contain.

       PAM and OCIO agreed with all four recommendations and provided its plan of action in
a memorandum dated July 7, 2009. Based on DOl's response, we considered the four
recommendations resolved but not implemented~ We deemed the actions identified in DOl's
response to Recommendations 1 and 3 to be insufficient. PFM notified us that the
recommendations were closed as shown below:

   •    Recommendation 1: July 19, 2010;
   •    Recommendation 2: September 9, 2010;
   •    Recommendation 3: August 25, 2011; and
   •    Recommendation 4: January 17, 2012.




                       Office of Audits, Inspections, and Evaluations I Sacramento, CA
Scope and Methodology

       The scope of this review was limited to determining whether PAM and OCIO took action
to implement our recommendations. To accomplish our objective, we reviewed the supporting
documentation that PAM and OCIO provided and discussed actions taken relating to the
recommendations.

       We did not perform any site visits or conduct fieldwork to determine whether PAM and
OCIO had corrected the underlying deficiencies that we initially identified. As a result, this
review was not conducted in accordance with the Generally Accepted Government Auditing
Standards issued by the Comptroller General of the United States or the Quality Standards for
Inspection and Evaluation of the Council of the Inspectors General on Integrity and Efficiency.

Results of Review

       We determined that all four recommendations have been resolved and implemented.

       Recommendation 1: Establish a uniform DOl-wide, system-controlled chain of
       custody property system for computers.

        PAM established a policy requiring that DOl treat all computers as system-controlled
property to be recorded and tracked in an official system for managing personal property. PAM
also provided information to demonstrate that it had established a centralized, DOl-wide
property management system.

       Based on the information that PAM provided and the documents we reviewed, we
conclude that this recommendation has been resolved and implemented.

       Recommendation 2: Incorporate information sanitization procedures in
       conjunction with property disposal procedures.

      PAM and OCIO issued a memorandum and published a chapter in the Departmental
Manual to provide guidance on the proper sanitation and disposal of computer equipment.

      Based on the information that PAM and OCIO provided and the documents we reviewed,
we conclude that this recommendation has been resolved and implemented.

       Recommendation 3: Require that the loss or theft of all computers be reported to
       DOl's Computer Incident Response Center [DOI-CIRC].

       PAM revised its policy to require that all incidents of loss, theft, or damage to desktop
and laptop computers be reported to the DOI-CIRC. OCIO also included a statement in its
mandatory training for Federal Information System Security Awareness and Privacy and Records
Management that all information security incidents, including the potential loss or theft of all
computers, be reported to DOI-CIRC. In addition, DOl's "Interior Computer Security Incident
Response Handbook" establishes reporting requirements based on threat level assessments. The


                                               2
handbook further requires that lost or stolen laptops containing personally identifiable
information be reported to DOI-CIRC within one hour of discovery.

      Based on the information that PAM and OCIO provided and the documents we reviewed,
we conclude that this recommendation has been resolved and implemented.

       Recommendation 4: Take immediate steps to encrypt all portable computers
       throughout DOL

        OCIO mandated that all bureaus and offices use cryptography to protect the
confidentiality and integrity of remote access sessions and authorized an enterprise data
encryption solution. At the time OCIO requested closure of this recommendation, it reported that
nearly 85 percent ofDOI laptops had been encrypted. At the time of our review, OCIO reported
that 89 percent ofDOI laptops had been encrypted. OCIO's goal is to encrypt all DOl laptops; it
stated, however, that 100 percent compliance is not easily sustained in such a dynamic
environment.

        Based on the information OCIO provided, the documents we reviewed, and consideration
of the fluidity of the situation, we conclude that this recommendation has been resolved and
implemented.

Conclusion

       In an email dated July 26, 2013, we informed OCIO officials of the results of this review.
OCIO officials agreed with the results of our review and declined our offer for an exit
conference.

       If you have any questions about this report, please contact me at 916-978-5653.

cc: Debra E. Sonderman, Director, Office of Acquisition and Property Management
    Bernard Mazer, Chieflnformation Officer, Office of the Chieflnformation Officer
    Nancy Thomas, Liaison Officer, Office of Financial Management
    Kathryn Bender, Liaison Officer, Office of Acquisition and Property Management
    Michael Ashworth, Director, Independent Verification and Validation, Office ofthe Chief
      Information Officer
    Peter Brownell, Liaision Officer, Office ofthe Chief Information Officer




                                                3
